<html>
<title> - DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED AGENCIES APPROPRIATIONS FOR 2001</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



      DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY,

              AND RELATED AGENCIES APPROPRIATIONS FOR 2001

                 DEPARTMENTS OF COMMERCE, JUSTICE, AND

                   STATE, THE JUDICIARY, AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2001

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                             SECOND SESSION
                                ________
  SUBCOMMITTEE ON THE DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE 
                    JUDICIARY, AND RELATED AGENCIES
                    HAROLD ROGERS, Kentucky, Chairman
 JIM KOLBE, Arizona                  JOSE E. SERRANO, New York
 CHARLES H. TAYLOR, North Carolina   JULIAN C. DIXON, California
 RALPH REGULA, Ohio                  ALAN B. MOLLOHAN, West Virginia
 TOM LATHAM, Iowa                    LUCILLE ROYBAL-ALLARD, California
 DAN MILLER, Florida
 ZACH WAMP, Tennessee               
                    
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
    Gail Del Balzo, Jennifer Miller, Mike Ringler, and Christine Ryan
                           Subcommittee Staff
                                ________
                                 PART 9
               TESTIMONY OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 64-897                     WASHINGTON : 2000

                        COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois        NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky             MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico               JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 RON PACKARD, California             NANCY PELOSI, California
 SONNY CALLAHAN, Alabama             PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York            NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina   JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio               ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma     JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan           ED PASTOR, Arizona
 DAN MILLER, Florida                 CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia              MICHAEL P. FORBES, New York
 RODNEY P. FRELINGHUYSEN, New Jersey CHET EDWARDS, Texas
 ROGER F. WICKER, Mississippi        ROBERT E. ``BUD'' CRAMER, Jr., 
 GEORGE R. NETHERCUTT, Jr.,          Alabama
Washington                           MAURICE D. HINCHEY, New York
 RANDY ``DUKE'' CUNNINGHAM,          LUCILLE ROYBAL-ALLARD, California
California                           SAM FARR, California
 TODD TIAHRT, Kansas                 JESSE L. JACKSON, Jr., Illinois
 ZACH WAMP, Tennessee                CAROLYN C. KILPATRICK, Michigan
 TOM LATHAM, Iowa                    ALLEN BOYD, Florida                 
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania
 VIRGIL H. GOODE, Jr., Virginia     

                   James W. Dyer, Clerk and Staff Director

                                  (ii)

 
DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2001

                              ----------                              


 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              

                                          Thursday, March 23, 2000.

                             COPS PROGRAMS

                                WITNESS

HON. PETER J. VISCLOSKY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA
    Mr. Rogers. The committee will be in order. This commences 
the hearing at which individual Members of Congress will 
present their views on various aspects of the administration's 
budget request for fiscal year 2001. Your statements will be 
made a part of the record, and we hope you can summarize and 
keep your remarks within the 5-minute frame, and we assure you 
that if you do you will be given more favorable treatment.
    We will begin with the gentleman from Indiana, Mr. 
Visclosky. Welcome to you to your subcommittee.
    Mr. Visclosky. Thank you, Mr. Chairman. Mr. Chairman, I 
want to thank you and every member of the committee for your 
judgment as well as your generosity for the last several years. 
Mr. LoBiondo and I have introduced the Bulletproof Vest 
Partnership Grant Act which was originally authorized 2 years 
ago. It was a new start in both of the last two fiscal years 
and you fully funded the program.
    I am convinced today that there are police officers alive 
in the United States of America that would be dead but for the 
decision you and the members of the subcommittee made. I thank 
you very much and very sincerely for your judgment and 
generosity.
    Obviously on behalf of Mr. LoBiondo and myself, we again 
appreciate the subcommittee's consideration as far as funding 
of the program.
    Additionally the subcommittee also was very generous last 
year in earmarking $2.5 million for the Hoosier SAFE-T 
Communication Program. Over the course of years we will need 
about $66 million. The request this year is for a follow-on of 
$3 million.
    The final item is a new item, an earmark for the First 
Congressional District of Indiana of $50,000 for an automated 
fingerprint identification system (AFIS).
    Mr. Chairman, I appreciate your courtesy and again your 
consideration in the past years and for your time today.
    [The information follows:]
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


    Mr. Rogers. Well, I want to I thank the gentleman. It was 
his legislation that led to the bulletproof vest authorization 
and we jumped on it here and quickly found the moneys to fund 
it. It was a very worthwhile expenditure of funds and I agree 
with you, I think there are some law enforcement officers who 
are alive today because of it.
    I thank you for your contribution to a very important 
program.
    Mr. Visclosky. Thank you, Mr. Chairman.
    Mr. Rogers. Thank you. Mr. Cramer. Oh, by the way, Mr. 
Visclosky, you get extra points for keeping it brief.
    Mr. Visclosky. That is what I was counting on, Mr. 
Chairman.
                              ----------                              

                                          Thursday, March 23, 2000.

                  CHILDREN'S ADVOCACY CENTER PROGRAMS


                                WITNESS

HON. BUD CRAMER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF ALABAMA
    Mr. Cramer. Thank you, Mr. Chairman, and thank you, Mr. 
Serrano, as well. I am back again on behalf of the National 
Children's Advocacy Center Programs.
    Mr. Chairman, since 1993 this committee has funded this 
national network. Because of your support we now have 500 
children's advocacy center programs around this country. We did 
a brief on the committee members. Every district represented on 
this committee has a children advocacy center program in it. We 
are rescuing children.
    The beauty of this program, Mr. Chairman, is the money that 
has been appropriated has acted as seed money. These programs 
come into existence and are supported mainly by the private 
sector in all of the communities where they exist. These are 
programs that umbrella community resources that allow the law 
enforcement detectives, the child protective service workers, 
mental health practitioners, law enforcement to come together 
to interview together children and family members that are 
going through certain processes. It might be the criminal 
justice system where children were removed from parents. All of 
these children are child abuse victims, many of them severely 
injured and many of them child sexual abuse victims.
    So on behalf of them I thank you. And just quickly because 
you challenged me to be brief and I want to be brief because I 
want to be rewarded, the congressional spouses have adopted 
this as their program, so locally here with D.C.'s children 
advocacy center called Safe Shores. And it has taken the 
District--which has a remarkable set of circumstances to deal 
with here with this resource scatterings, it has taken them a 
few years to get their program established called Safe Shores. 
What the congressional spouses are going to help make it happen 
here is they are going to help locate our national headquarters 
for this program. The District has given us a school on Capitol 
Hill, the Gales School across the Hill. And the spouses and the 
local program's board is going to raise money so we can locate 
our national office of this program that this committee has 
caused to be created.
    I am just here on behalf of the Children's Advocacy Center 
Program to say thank you. Mr. Chairman, you might remember this 
program started when I was a district attorney in my prior 
political life. In my prior political professional life I was 
DA there in Huntsville, Alabama for 10 years. And it was there 
on the front line that I saw these children coming through the 
system and saw that the system was reabusing them. It wasn't 
working together and it wasn't rescuing them. So we started the 
first children's advocacy center program there in Huntsville, 
Alabama. That is going back in the early days until now we have 
seen hundreds of these rise up.
    We thank the committee for its support.
    [The information follows:]
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


    Mr. Serrano. I think that was smart that you reminded the 
chairman that you were a prosecutor.
    Mr. Cramer. Oh, okay.
    Mr. Rogers. Well, the gentleman, again, is the father of 
this program. He is the one that came up with the idea and 
promoted it all of the way through. Quickly, he convinced us of 
the wisdom of it and we have been able to fund a good number of 
these. We think they are doing a good job and you have done a 
wonderful job in proposing it.
    Mr. Cramer. Thank you.
    Mr. Rogers. Thank you and you are a very valuable member of 
the Appropriations Committee. You have some points stacked up 
for you there.
    Mr. Cramer. Barely. It is a challenge for a Southerner to 
talk fast.
                              ----------                              

                                          Thursday, March 23, 2000.

                    TESTIMONY OF MEMBERS OF CONGRESS


                                WITNESS

HON. ELIJAH CUMMINGS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MARYLAND
    Mr. Rogers. Mr. Cummings.
    Mr. Cummings. Thank you, Mr. Chairman. I represent the 17th 
Congressional District of Baltimore. According to the Statistic 
Abstract of the United States for 1998, of the 15 largest 
cities in the United States, Baltimore ranks first in overall 
crime rates at more than 12,000 criminal offenses per 100,000 
city residents. We also rank first in violent crime rates, 
2,722 violent crimes committed per 100,000 residents and second 
in property crime rates, 9,278 property crimes per 100,000 
residents. These are firsts that I would rather not win and I 
know my constituents would rather not win them either.
    More than 72,000 people moved out of Baltimore during the 
1990s, a rate of 600 per month and the second highest rate of 
population loss in America. While not solely attributable to 
crime rates, there is certainly a correlation with the urban 
flight experience by Baltimore.
    Furthermore, Baltimore City has experienced a significant 
dropoff in the number of officers serving on the police force. 
As of July 31, 1999, there were 2,985 actual sworn members of 
the Baltimore City Police Department. 3,222 positions were 
funded and so the city currently has about 337 vacancies. The 
current vacancy rate of the Baltimore Police Department is 
especially high due to the recent offering of deferred 
retirement option program, which saved money for the city but 
was a disastrous operational impact on the Police Department. 
Over the past 6 years the sworn vacancy rate has averaged 110 
officers. This rate is significant because if these positions 
were filled they would create a fully staffed drug enforcement 
and tactical unit of three-fourths of the personnel necessary 
for a police district. The Department has been unable to get 
enough qualified candidates to fill these slots.
    While the police force shrinks crime increases, 
particularly drug-related crime. At present the police 
estimates suggest that there are roughly 50 open drug markets 
in Baltimore. These sites, which are often located near city 
schools or other areas where young people gather, have become 
commonplace in Baltimore because Baltimore's resources are 
stretched very thinly. Roughly 2,900 children are arrested each 
year for purchasing narcotics from drug dealers who prey on 
them. The city's new mayor has set the goal of permanently 
eliminating a minimum of 10 of these open air markets within 
the next 6 months.
    Clearly, Mr. Chairman, if this Congress is to live up to 
the commitment that we all share, Republican and Democrat, to 
help ensure public safety in our urban centers as well as in 
rural suburban communities, more resources must be provided to 
those on the frontlines of the war against crime.
    I want to spend just a short while talking about the 
appropriation request I have made to the subcommittee today on 
behalf of Mayor O'Malley and our city. I have asked the 
subcommittee to provide $10 million in fiscal year 2001 funding 
for a multi-faceted violent crime reduction initiative to help 
reverse the tide of crime in my home city.
    I requested funding to reinstate a Police Cadet Program, 
which would serve as a way to recruit and provide young adults 
with an education and career path to work police academy. The 
police could actually assist in operating and expanding the 
Police Athletic League Program and serve as mentors for 
community youth in after school programs.
    Funding was also requested to support overtime for officers 
services necessary to close down the Baltimore open drug 
markets. Currently many officers would like to volunteer for 
overtime to patrol the neighborhoods where dope dealers peddle 
their poison, but the Police Department lacks the resources 
that would permit them to serve.
    At present Baltimore City's homicide detectives investigate 
roughly 300 murders each year with outdated technology and 
training that is often behind the cutting edge. With earmarked 
funding the city would be able to assist these detectives in 
the use of state of the art forensic technologies such as DNA 
analysis, voice stress analysis, blood spatters, crime scene 
management, and other new investigative tools.
    The Baltimore City Police Department would also purchase 
new computer software. Right now officers spend between 25 and 
50 percent of their time in station houses filling out reports 
from arrests they have made. My request would support 
technologies that would reduce the amount of time police 
officers spend in-house so that these men and women can go back 
to walking the beats on Baltimore's streets.
    Finally, supporting my request would enable the Baltimore 
City Police Department to purchase 55 new vehicles, 55 unmarked 
vehicles for violent crime investigators and 10 unmarked cars 
for the homicide unit. Baltimore Police Department estimates 
that 232 out of the department's 850 marked and unmarked 
vehicles are out of service due to excessive milage and 
departmental accidents. By providing these resources the 
subcommittee would send a loud and clear message to the 
citizens of Baltimore and other urban areas around the Nation 
that we will no longer tolerate crime at any level, that we 
will not tolerate pushers and dealers ruining the lives of our 
children, and we will not tolerate the violence that touches so 
many lives in our inner city.
    Thank you very much, Mr. Chairman, and thank you Mr. 
Ranking Member.
    [The information follows:]
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Rogers. Thank you, Mr. Cummings, for that excellent 
testimony. This current career we provided $287 million for 
juvenile justice assistance, most of which is for grants, 
practically all of it are grants such as you speak of, and $552 
million for Byrne grants available also for local police forces 
and not to mention the huge investment of the COPS program and 
the local law enforcement block grants, all of which would be 
available for local police departments.
    So I would encourage you and the police departments there 
to seek those grants because they are for that very purpose.
    Mr. Cummings. We will.
    Mr. Rogers. Mr. Serrano.
    Mr. Serrano. I know the gentleman is interested in this 
issue because he has spoken to me concerning it. I think there 
are different approaches. One is the one you bring to us today 
and, as the chairperson says, make sure we make use of existing 
dollars in there because there is quite a bit of money in there 
that could be used locally.
    Mr. Cummings. Thank you.
                              ----------                              

                                          Thursday, March 23, 2000.

                    TESTIMONY OF MEMBERS OF CONGRESS


                                WITNESS

HON. WAYNE GILCHREST, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MARYLAND
    Mr. Rogers. Mr. Gilchrest.
    Mr. Gilchrest. Mr. Chairman. Good afternoon, everyone.
    Mr. Rogers. Welcome.
    Mr. Gilchrest. Thank you. Are you ready to go?
    Mr. Rogers. Yes, we will make your statement part of the 
record and if you would like to summarize it in 5 minutes or 
less we would be delighted to hear from you.
    Mr. Gilchrest. I do ask unanimous consent that my full 
statement be submitted for the record, and for the purposes of 
human sensitivity will roll through it rather quickly.
    Mr. Chairman, we have come before this committee before 
dealing with this most important but sometimes obscure agency 
in the Federal Government called National Oceanic Atmospheric 
Administration. They deal with the coastal areas and the oceans 
of the world. And what we are asking for today from our strong 
perspective is adequate funding to let these folks do their job 
in specific programs that would be very helpful not only to 
constituents in my district but certainly to people around the 
country.
    The first program I want to talk about is called Lower 
Chesapeake Bay Research. This is a program that helps with the 
Chesapeake Bay program, which many of you may be familiar with, 
establish an understanding for the dynamic marine ecosystem of 
the Chesapeake Bay. The reason that is critical to us not only 
from an environmental perspective but from an economic 
perspective is that basically the most important aspect of my 
district as far as the economy of my district is concerned is 
the Chesapeake Bay, from commercial fishing to recreational 
boating, to restaurants to tourism and so on, is the fishery of 
the Chesapeake Bay. And knowing that complex, dynamic ecosystem 
so that it can be managed appropriately to sustain the 
resources, we would like the amount of $2.5 million funded to 
the Chesapeake Bay research organization.
    The next area is oyster reef restoration, which we are 
asking for a small amount, Mr. Chairman, just $1 million. Now, 
the reason this is important is because about 90 percent of the 
oyster population in the Chesapeake Bay has been eliminated 
because of overharvesting, pollution. It has disappeared over 
the last 100 years. If we look back at the turn of the century, 
1900, we have lost over 90 percent of the oysters for various 
reasons as a result of human activity. What we finally decided 
the way to bring the oysters back is to instead of building an 
oyster bar which would not be as high as this table is from the 
bottom of the water, but bring it back to its natural state, 
which is making an oyster reef from the bottom of the bay to as 
high as this ceiling or the double height of this ceiling.
    If you build an oyster reef you do two things. You make 
oysters more resistant to diseases because they are in a more 
natural environment and how it has evolved. You can reproduce 
oysters because in the process of reproducing when they spit 
out those tiny little eggs the current takes them and replaces 
them. There is not a lot of oysters around, they just 
disappear.
    And the third thing is oysters used to filter out the 
entire Chesapeake Bay in about 3 days. They would purify the 
water because they are filter feeders. Because of the small 
number of oysters we have now they don't filter any pollution 
from the Bay whatsoever. So the small amount of funding for 
that program we feel is significantly important.
    The third thing is fisheries research. That is not only for 
the Chesapeake Bay but for around the country. Briefly, there 
is eight management councils on the coastal areas of the United 
States that provide management and expertise as to how to 
conduct a fishery, whether it is in New England, the Gulf 
States, Alaska or wherever it might be. The only way to manage 
our fishery resources so they don't become polluted and more 
than 50 percent of our stock is depleted is to get good science 
on what the stocks are now. To get the science you have to have 
the people with the expertise and you have to have the vessels. 
If we don't have the science we don't have the data that these 
management councils from around the country that depend on that 
information to help restore our fisheries and to sustain our 
fisheries, then we will continue to have depletion in the fish 
stock.
    Harmful algal blooms is probably something that you have 
heard in the form of Pfiesteria. Pfiesteria is a microorganism 
that is not new. It has been on the planet for about a million 
years. It has 24 different life cycles. It is very complex. It 
is a plant and an animal depending on its life cycle. When it 
comes out and has its reproduction process it emits a small 
chemical in the water. That small chemical attaches or attacks 
the neurological center of any species that happens to be in 
the water at the time, including humans. Some of the fish--and 
in North Carolina you probably heard over the years there has 
been a billion fish that have been harmed as a result of that. 
The reason this has actually killed--in Maryland we have had 
millions of fish die. What this harmful algal bloom research 
can help with around the country, but particularly in Maryland, 
the Department of Agriculture and NOAA have gotten together to 
try to understand the impact of human activity, agriculture in 
particular, to fisheries and waterways. So we feel that a 
number of things could happen as a result of this 
appropriation. Not only will there be a better understanding of 
these kinds of microorganisms, but what causes these 
microorganisms to go into that stage of their life cycle where 
they become toxic and how we can better manage the fisheries 
and better manage our agricultural resource.
    The last two things I will just say very quickly. The 
National Sea Grant College Program. The Sea Grant College 
Program has been an effective, positive ingredient for making 
policy in this Congress. Many Members who choose can have a Sea 
Grant fellow. I have had them ever since I have been here. Not 
only are they dynamos when it comes to working long hours but 
they are very smart people and they help with all of this.
    I know George Gekas, if and when he comes through here, 
will also support the Susquehanna River flood forecast and 
warning system appropriation because it does a lot of help for 
people downstream to avoid problems when there is too much rain 
in these floods.
    So I am prepared to answer all of your questions.
    [The information follows:]
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Rogers. Well, thank you for your testimony. This 
current year we provided $1.8 million for Chesapeake Bay 
studies and almost a half million for the Bay Oyster Recovery 
Partnership, half a million for Bay Multi-species Transitional 
Strategy, 59.2 million for Sea Grants, 185 million for 
construction, 283 million for basic core research, and 247 
million for external basic research. And I have to tell you 
that if this budget resolution that is now pending passes it 
looks like the overall appropriations level will be cut by 4 
percent from current levels. And we are not going to have any 
money for the things that----
    Mr. Gilchrest. Can I ask you, is that 596 or 586, what we 
are voting for today?
    Mr. Rogers. It is--I am not sure. But that is what we have 
been told from our leadership, that we are really going to be 
in a bad squeeze. It is not flat funding, it is less than flat, 
even funding for next year. So we are going to be in a real 
bind. I know how strongly the gentleman feels about these 
issues as do a lot of people. I am just saying that don't look 
for a lot.
    Mr. Gilchrest. Well, thank you, Mr. Chairman. We will stay 
with you on all of these issues and we will be getting funded 
as much as is possible. It is worth the numbers.
    Mr. Rogers. The budget resolution calls for a 596.5 
billion. Thank you.
    Mr. Serrano.
    Mr. Serrano. No. I just want to thank you for your 
testimony and really a lesson on oysters.
    Mr. Gilchrest. The committee is invited any time at your 
convenience to come to the Eastern Shore. Can I testify again, 
Mr. Chairman, with some oyster fritters? I will bring them 
tomorrow.
    Mr. Rogers. Ms. Roybal-Allard.
    The gentleman's testimony is an example of the 
extraordinarily broad jurisdiction of this subcommittee. We 
deal with everything from embassy security to oysters in the 
Bay.
    Mr. Gilchrest. We appreciate your responsibilities, Mr. 
Chairman.
    Mr. Rogers. Thank you very much. Ms. Pelosi.
                              ----------                              

                                          Thursday, March 23, 2000.

RADIO FREE ASIA, THE ASIA FOUNDATION, JUVENILE JUSTICE PROGRAMS IN SAN 
   FRANCISCO, AND INS STAFFING AT SAN FRANCISCO INTERNATIONAL AIRPORT


                                WITNESS

HON. NANCY PELOSI, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Ms. Pelosi. Mr. Chairman, as a native Marylander I can 
testify to the deliciousness of those oysters. A long time ago 
oyster roasts were a regular part of our lives. I don't know if 
they have enough to do that now but it was a long time ago.
    Mr. Rogers. I meant to point out to Mr. Gilchrest and the 
others we will make your written statements a part of the 
record and if you would like to summarize in 5 minutes or less, 
we give you points for less.
    Ms. Pelosi. Thank you, Mr. Chairman, Mr. Serrano, ranking 
member, Congresswoman. As a former member of this subcommittee 
I fully appreciate the breadth of your jurisdiction and I 
admire your power. I am going to be very brief, submit my full 
statement for the record and heeding the chairman's admonition, 
just enumerate a few requests.
    Thank you very much for the opportunity to testify and 
thank you always for your previous support for some requests 
about Radio Free Asia, the Asia Foundation, and language 
supporting funding for improvements of the juvenile justice 
system in San Francisco. I appreciate your consideration of the 
following requests and look forward to working with you on the 
fiscal year 2001 appropriations bill.
    Mr. Chairman, seeing this backlog, I am going to be 
exceedingly brief. If you want me to elaborate I will. Radio 
Free Asia, the administration is requesting 23.77 million for 
Radio Free Asia for fiscal year 2001, an increase from an 
estimated $22 million for this year. I respectfully request 
that the committee provide at least the administration's 
request of $23.77 million and that increase is primarily 
related to cost of living and inflation. Radio Free Asia is the 
only international radio broadcast providing news and 
information 24 hours a day to China in seven languages and 
dialects. It goes also to North Korea and Vietnam--reporting 
important documents.
    The Asia Foundation. I support the administration's fiscal 
year 2001 request for 10 million for the Asia Foundation. While 
this is an improvement over recent years, even this level of 
funding will limit the foundation's ability to undertake 
important programs given the challenges and opportunities 
facing the Asia region. The Asia Foundation advances U.S. 
interests by strengthening democratic institutions as well as 
advancing economic opportunities and cooperative regional 
relations through the Asia Foundation's ability to deliver high 
quality programs on the ground through its network and offices 
in Asia. More on that and Radio Free Asia are in my full 
statement.
    The Bureau of Justice. The City of San Francisco has 
requested my assistance to obtain $4.5 million for improvement 
of San Francisco's juvenile justice system, including the 
detention upgrades. I have a fuller description of the request 
and the justification in my statement.
    Immigration--I am trying to be a model to those who follow, 
Mr. Chairman. Immigration and Naturalization Service. I am 
concerned about the problem of insufficient INS staffing in San 
Francisco International Airport and request funding for 50 new 
full-time positions. We are building what will be one of the 
largest international travel centers in the world. It is a 
Pacific gateway. Working with the INS they recommended an 
increase of 54 stations from the 28 existing stations and to 
adequately staff this they must increase to 218 full-time 
positions. They are at 116 now. So this request is to consider 
fuller funding there.
    And on behalf of all 52 members of the bipartisan 
California delegation, this is a bipartisan request--not that 
the others were not, but this is with authority to speak for 
all 52 California Representatives--I respectfully request that 
the subcommittee provide at least $650 million for the State 
Criminal Alien Assistance Program, which is authorized in 
fiscal year 2001 level. I commend Congresswoman Roybal-Allard 
on her leadership and wanted to bring this to the attention of 
the committee the unanimous support of our delegation, which is 
not easy to obtain, Mr. Chairman, even though this is a very 
top priority for our State. And I elaborate on it further in my 
statement.
    With that, I thank you again for your past support and for 
the opportunity to testify today. I would be pleased to answer 
any questions.
    [The information follows:]
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Rogers. I thank the gentlelady for her testimony and 
the abbreviation of it. The gentlelady has been one of the 
great captains of Radio Free Asia along with Congressman Porter 
and others. We saw fit this current year to provide 8.25 
million for the Asia Foundation. And we have tried to fund the 
other items that the gentlelady has mentioned, including SCAAP, 
which has been a real labor. But again I point out that the 
budget resolution that is on the floor, we are going to be 
severely strapped for funds again this year more than last year 
even.
    Mr. Serrano.
    Mr. Serrano. Well, just to thank you, Nancy, for your 
testimony and I know you have been--we all know you have been a 
champion in these issues. The chairman is correct, but even 
within that problem we will do what I know is right.
    Ms. Pelosi. Thank you, Mr. Chairman. Mr. Chairman, if I may 
say about the Asia Foundation, a few years ago we were trying 
to get funding up to $20 million and then with everything being 
decreased and there has been a real tightening of the belt and 
revaluation of how to afford it because the funds simply were 
not there. So this $10 million is not something we are seeking 
from $2 million or $4 million. It is something that we have 
been cut back from seeking to 20 when we were at the 16, or 18 
million level several years ago. I hope that we can do our best 
on that as well as the others.
    Mr. Rogers. The gentlelady is a very forceful and valued 
member of the Appropriations Committee. We appreciate your 
testimony. Ms. Roybal-Allard.
    Ms. Roybal-Allard. You have summarized it and we appreciate 
your testimony on these issues.
    Mr. Rogers. Mr. Stupak.
                              ----------                              

                                          Thursday, March 23, 2000.

  COPS PROGRAM, BYRNE FORMULA GRANTS PROGRAM, CONVICTED OFFENDER DNA 
 INDEX SYSEM SUPPORT ACT, INTERNATIONAL JOINT COMMISION, ST. LAWRENCE 
              SEAWAY STUDY, AND THE NATIONAL GRANT PROGRAM


                                WITNESS

HON. BART STUPAK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MICHIGAN
    Mr. Stupak. Thank you, Mr. Chairman. I will just quickly 
summarize my testimony and open up for any questions that you 
may have. First of all, Mr. Chairman, we have talked about the 
COPS program. Once again I hope we can honor the President's 
request of $1.3 billion for fiscal year 2001.
    The Byrne grants formula, you have always been great on 
that. Despite the President's request to reduce it to $460 
million we would like to see it at $552 million, which is 
really last year's level. I would ask this to go at the level 
that we had last year on the Byrne grants. You know Byrne 
grants as well as I do.
    There is sort of a new request we have in here, which is a 
DNA bill, Mr. Chairman. Representative Ben Gilman and Jim 
Ramstad and myself, we have a Convicted Offender DNA Index 
System Support Act. The reason that is important, sexual 
offenders, they take their DNA or you go to a crime scene 
offense, you take the DNA. But the States and local governments 
don't have any money to then test that DNA to classify it. For 
instance, nationwide we have over 700,000 backlog on DNA. 
California, 132,000 have been collected and 132,000 are 
unanalyzed, just sitting there. So if you have a perpetrator 
out there of violent crime with DNA, there is no way--if you 
get that match there is no way to take it and put it against 
your State's bank to see if they may have committed other 
crimes.
    Kentucky is one of the better states. They have collected 
3,102 samples and they have only a backlog of 327. Kentucky has 
been one of the better states. Michigan my state, zero. 5200 
have been collected and none of them analyzed. We are asking 
basically about $40 million. The President's proposal submits 
$5.3 million for FBI DNA--that is just the FBI DNA backlog. And 
then we would like to see 15 million for State and local DNA 
convicted offender backlogs.
    So that is why we are coming up with those funds, Mr. 
Chairman, to come up to help us out with the DNA data bases and 
solve more crime and hopefully get this backlog cleaned up.
    The International Joint Commission. As you know, Mr. 
Chairman, the Boundary Waters Act of 1909 created the 
International Joint Commission. We are asking for $6.172 
million for International Joint Commission. That is an increase 
of just 250,000 above the President's request. Actually it is 
$2.74 million above last year's appropriation.
    For many reasons, the St. Lawrence Seaway study has to be 
completed. They have just done work on the boundary waters 
between the U.S. and Canada, the Great Lakes in particular. 
They have to develop a plan to study lake levels on the Great 
Lakes. As you know, they are really, really low and that is why 
they have additional requests.
    The maritime academies. This committee has always been 
great in helping all of our state maritime academies. We would 
like to see $11 million for the state maritime academies. There 
is only one on the Great Lakes and that is the Great Lakes 
Maritime Academy at Traverse City, part of my district. That 
takes care of all of the shipping concerns on the Great Lakes, 
provide our sailors and merchant mariners for the Great Lakes.
    Mr. Gilchrest mentioned the National Sea Grant. I 
wholeheartedly agree with him on that. We use our program a bit 
differently, to help fight the invasion of foreign species in 
the water. When the salties or the ocean going ships come up 
the St. Lawrence Seaway they discharge their ballast water and 
they give us things like Eurasian ruffe, the zebra mussels, sea 
lamprey, which really wiped out our fish population and played 
havoc with our environment of the Great Lakes. That is why we 
have the Great Lakes Environmental Research Lab.
    It is all in here, Mr. Chairman. I will stop right there. 
If you have any questions on the DNA, the formula for the Byrne 
grants, the COPS program, I would be happy to answer any 
questions.
    [The information follows:]
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Rogers. I thank the gentleman for his testimony. We did 
provide in the current year $9.3 million for the Great Lakes 
Fishery Commission--I'm sorry. I was mistaken. The request from 
the administration was for $9.3 million for the commission. We 
did provide 595 million for the COPS program and 552 for Byrne 
grants not to mention the State and local grants and other 
juvenile justice grants and the like.
    So we have been, I think, generous in those respects. We 
will certainly take your testimony under consideration. We 
appreciate you being here.
    Mr. Stupak. I can't disagree with the committee. They have 
always done a good job on the science projects and helped COPS 
and all of the other programs I have argued for. The DNA may be 
one that may be of some significance that we haven't done in 
the past that needs some attention. Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Serrano.
    Mr. Serrano. Just to once again congratulate you on your 
support of COPS program and the work that you do. We will in 
that area definitely continue to push and hope that we continue 
to bring that program where it should be. It is a difficult 
year and we have to balance that with everything else.
    Mr. Rogers. Ms. Roybal-Allard? Thank you. Mr. Weygand. 
George Gekas, you are recognized. Chairman of the Subcommittee 
on Commercial and Administrative Law of the Judiciary, you are 
welcome here.
                              ----------                              

                                          Thursday, March 23, 2000.

                    TESTIMONY OF MEMBERS OF CONGRESS


                                WITNESS

HON. GEORGE GEKAS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
    Mr. Gekas. Yes, Mr. Chairman, and members. I wear two hats, 
one thrust upon me by Mr. Gilchrest inadvertently so I can 
second his testimony not as to the oysters but the cloisters in 
Pennsylvania which are safeguarded somewhat by--a great deal by 
the flood watch programs of the Susquehanna River Basin 
Commission. Part of our request to your committee is the full 
funding of the various gauges, gauging equipment and 
implementation thereof. That is the one-half. So I will be 
bringing you testimony on that a little bit later.
    Here today I want to concentrate for a few minutes on the 
Legal Services Corporation and to congratulate you, Mr. 
Chairman, and the others for their attention to that very 
serious portion of our budgetary requirements.
    Last year during the debate I supported the amendment that 
would have--and did result in lifting the original 
recommendation of the committee to its current levels. I did so 
and stated very emphatically that I did so with a lump in my 
throat because I had in front of me rampant misuses and abuses 
of the way that the reporting system was being handled by the 
grantees of our legal services system and overcount that was at 
least prima facie to me warning enough that more had to be done 
to make sure that we were funding it properly and according to 
its needs. But I said on the floor then and it bears part of 
premise of what I wish to discuss with you that I was willing 
to support the additional moneys despite the evidence that I 
had giving the benefit of the doubt to the legal services 
community, but that I would then conduct hearings as chairman 
of the relevant committee to determine the extent of this 
overcount of cases that was running through the system.
    I report to you, and as I have already reported to you, 
that that hearing revealed a great number of abuses in that 
special regard. And so when the time comes again for you to 
appear on the floor I will want to give the benefit of the 
doubt this time to the appropriators in the amount that you 
wish to pen to the Legal Services Corporation, keeping in mind 
that we still have not reached the end of the line in our 
examination of the overcount and other abuses by the grantees.
    For instance, we still have evidence in front of us even 
after all that has been said and done--by the way, I have to 
commend the legal services staff and administration for making 
human efforts to correct those situations. That goes without 
saying, but I am saying it anyway to their credit. But still we 
get bits and pieces of evidence that the grantees are flaunting 
the requests for information even from their own departments, 
from their own superiors in many cases. We still then do not 
have a full picture of how they count cases and how they 
determine the needs that they present to our committee and to 
our Congress.
    So I say that I will be taking the floor at that time to 
say sternly that we ought to give the benefit of the doubt this 
round until we complete all of these to the appropriators and 
not as we did before to the Legal Services Corporation which I 
was willing to do and did.
    Furthermore, there is one aspect of this that I don't fully 
understand but for the benefit of the discussion the GAO 
delivered a report managing for results, just yesterday I 
suppose, in which it stays using GPRA to help congressional 
decision-making and oversight. We have not been able to 
determine whether this segment of what we tried to accomplish 
back in 1997 applies to the Legal Services Corporation. They 
themselves believe that it does not. I think the GAO thinks yes 
and the Congressional Budget Office thinks no. But I hope that 
the committee will at least in its report and its debate on 
this issue mandate to the Legal Services Corporation that they 
use the guidelines even if the law is unclear as to whether 
they apply. This is of course the--it is the Government 
Performance and Results Act, GPRA, but it is the Results Act 
let's call it. And this is supposed to give programmatic ways 
in which each agency can check on how its dollars are working 
pursuant to its program, et cetera.
    Again, although we are not sure at this stage whether it 
applies to Legal Services, at least there are guidelines and 
the way to do business ought to be fastened onto Legal Services 
in their work in trying to bring out a real picture of their 
needs to our Congress.
    With that, I will yield to any questions that the members 
may have.
    [The information follows:]
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Rogers. Chairman Gekas, thank you for your testimony. 
As chairman of the subcommittee that authorizes Legal Services, 
it is one of the chief things that we have in common with you 
because we are called upon to fund the Legal Services that you 
authorize, and several years now we have had to do the 
authorizing tier as well. With your strong input all of the way 
through that, you have been one of the champions over the years 
of reforming Legal Services and bringing it under control and 
making it work the way it should be working. You are one of the 
responsible voices here. There are some irresponsible voices in 
respect to Legal Services on both sides of the question.
    Mr. Gekas. I might add, Mr. Chairman, that you made it 
clear to me from the very first moment that the Republicans 
became the majority back in prehistoric days and I made clear 
to you that we were both interested in maintaining a program 
for legal assistance to the poor, and that we were going to do 
everything in our power to strengthen it, to make sure that 
every dollar went for legal assistance to the poor for 
representations in the gamut of issues that arose. And 
notwithstanding our joint efforts to try to revamp it, to try 
to reauthorize it in different ways, this theme of it was to 
help maintain a system of legal assistance to the poor. We do 
no less here, but we still must do our job in making sure that 
the dollars match the needs.
    Mr. Rogers. We are in agreement and have been all of the 
way through. I really appreciate your strong support for a 
proper Legal Services Corporation and your fight to make that 
happen. And we appreciate further your testimony today that you 
would be willing to support our position on the floor when it 
comes in regard to the funding level. We don't know what that 
is going to be yet because it looks like we are going to be 
squeezed even worse than last year, and the current year for 
funding levels overall in our full committee and subcommittee 
and it is going to be a harder pinch this year than last. We 
will look forward to working with you this year as we go 
through the process.
    Thank you so much for your expertise.
    Mr. Serrano, or Ms. Roybal-Allard?
    Mr. Serrano. Thank you, Mr. Chairman. I just wanted to 
thank the gentleman for his comments. As a cosponsor of the 
Serrano-Ramstad amendment on the floor, I do recall your words 
and I take them seriously. I hope that we can work out our 
differences before we get to the floor not only in dollars and 
what needs to be done because, as you know, this is an 
important program that is very popular. President Nixon created 
it back in those days. It was one of the greatest things that 
he has done so far.
    As far as your comment about how long it seems the 
Republicans have been in power, it just seems that way. It 
hasn't been that long.
    Mr. Gekas. We are going to make it a little longer.
    Mr. Rogers. Thank you.
    Mr. Serrano. Thank you very much.
                              ----------                              

                                          Thursday, March 23, 2000.

   CENTER FOR ENVIRONMENTAL STUDIES AT THE UNIVERSITY OF RHODE ISLAND


                                WITNESS

HON. ROBERT WEYGAND, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    RHODE ISLAND
    Mr. Rogers. Now, Mr. Weygand, we thank you for yielding 
your time. You are recognized. We will make all of your written 
statement part of the record and we invite you to summarize 
your written statement in 5 minutes or less and we do give 
points for less.
    Mr. Weygand. Your suggestion is well noted. I want to thank 
you for allowing me to speak here this morning. I will submit 
my full statement for the record as well as the documentation 
that supports this statement.
    Mr. Chairman, throughout this country whether it is 
California, West Coast, the East Coast, or the southern part of 
our country we have seen the stresses and strains on economic 
development as populations move from many of our urban areas to 
more coastal and waterfront areas. We particularly see that in 
the Northeast and all along the Eastern Seaboard where 
transportation systems have been strained, economic development 
has been impeded, housing and other costs have sky-rocketed and 
a host of economic problems besiege the coastal areas of our 
States, New York, Rhode Island, Florida, and the entire coastal 
areas.
    The Center for Environmental Studies at the University of 
Rhode Island is an attempt to bring all of the various state-
of-the-art techniques, improvements for economic development as 
well as transportation planning, land and water conservation as 
well as all of the applicable communities agenda. The basis for 
all of this, though, is the impact of economic development. We 
have seen throughout the years that as people begin to sprawl 
out of communities they also cost taxpayers, city, state, and 
even Federal Government money. Utilities have also seen the 
same thing. The Center for Environmental Studies would bring 
together a host of different state-of-the-art curriculums but 
also parts of the Livable Communities (community) in a way that 
has not been seen before.
    There are many universities that have graduate studies of 
planning, oceanography, marine studies, planning and 
development and a host of others. None of them combines it in a 
way the University of Rhode Island is proposing under this 
particular center. The purpose for this is really to combine 
and look at proclems and solutions and give guidance to States, 
communities and the Federal Government in an effort to not only 
enhance land development, improve it in an economic sense, but 
also provide the most effective and efficient means of 
providing for improvements in land use. By doing so we save the 
taxpayers in those communities, the States and the Federal 
Government money.
    This investment is something that needs to be done now. As 
we talk about urban sprawl we talk about the problems of going 
into the rural and suburban areas. We have seen time and time 
again the negative impact on the tax base, on the expenditure 
of additional taxes on systems. You in Appropriation Committee 
are asked time and time again to provide more money for 
community assistance.
    This center would be a total of $10 million. Some of it has 
already been appropriated through the University of Rhode 
Island, through the State of Rhode Island as well as through 
last year's appropriation. The total appropriation that is left 
is about 7.5 million. We are asking for half of that to be 
funded through CJS. We think it is properly before you in terms 
of either an EPA grant or a similar type of grant. We would 
like to work with the staff to determine the right placement 
for it.
    But it wouldn't be just for the State of Rhode Island. It 
would be used actually throughout the entire country because 
its techniques and transportation planning and economic 
development and environmental protection could be utilized by 
all states and localities.
    Mr. Chairman, I thank for your indulgence and the 
opportunity to address you and, as I said, I will submit my 
full statement for the record as well as documentation for the 
support of this request.
    [The information follows:]
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Rogers. That will be fine. We thank you for your 
testimony and your diligence on this issue and we will give it 
all due consideration. You are a member of the Budget Committee 
and you know----
    Mr. Weygand. I was waiting for that, Mr. Chairman.
    Mr. Rogers [continuing]. You know if this budget passes 
that is on the floor now we are going to be so severely 
restricted we won't be able to fund what we fund now much less 
anything new.
    Mr. Weygand. I look for your support for the Democratic 
alternative, which is to increase the amount of funding in 
these areas. Certainly we would be able to fund this and many 
others that we talked about from oysters to planning.
    Mr. Serrano. And all without any cost to the American 
taxpayer.
    Mr. Rogers. Any questions? Thank you very much.
    Mr. Weygand. Thank you, Mr. Chairman.
                              ----------                              

                                          Thursday, March 23, 2000.

 JUVENILE ACCOUNTABILITY INCENTIVE GRANT PROGRAMS, THE COPS TECHNOLOGY 
       PROGRAM, AND THE PACIFIC COASTAL SECTION RESTORATION FUND


                                WITNESS

HON. DARLENE HOOLEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON
    Mr. Rogers. Ms. Hooley.
    Ms. Hooley. You got the last name right.
    Mr. Rogers. Your statement will be made a part of the 
record and we invite you to summarize it for us.
    Ms. Hooley. I can do it very quickly. Mr. Chairman, Ranking 
Member Serrano, thank you for the opportunity to be in front of 
your committee along with a whole tent of other people.
    I have really three requests, one request--two requests: 
Fully fund the Office of Justice programs and particularly the 
Juvenile Accountability Incentive Grant and the COPS program. 
When I am around my district in talking to law enforcement 
officials and police chiefs, they say this program has worked 
better than any program they have ever had. They think it is 
the best thing the Federal Government has ever done. It has 
helped reduce the crime rate in our States. Juvenile crime, 
however, is still a problem, particularly methamphetamines. And 
so it is why I would like to see the juvenile program funded 
fully, if possible.
    There is a huge need for Federal assistance. I would just 
talk about one county, Clackamas County. We have 12 beds for 
the 650 young people held in detention last year. Police 
officers have to drive an hour to get to this detention 
facility. So there is a lot of wasted hours both in their time 
as well as the juvenile. When there are only 12 beds some of 
them are turned away and put back in the community when they 
really need to be held.
    The county is looking for $3 million for a new juvenile 
detention facility. They have secured about $1.7 million along 
with a site for the facility and they need your help. We also 
have a tremendous need to update enforcement equipment and 
technology. Thank you very much for your help last year. There 
was a million dollars earmarked in the budget for this. It made 
a difference. This is about a $6 million project. This got us 
off to a great start. We are looking for another $2 million and 
the county is putting in their share of almost $3 million.
    One of the reasons it is--I will just quickly mention this. 
In Clackamas County we have 50 percent of the land is owned by 
the Federal Government. We are now trying to cover those more 
rural areas and we have been asked to help. There is no way 
that you can communicate with the ambulance service and police 
service and fire service. So we are trying to make sure that we 
have a system that really deals with public safety and works 
for everyone. And again thank you for your help on that.
    The last issue I am going to talk about is bipartisan and 
bi-state and that is in the Northwest we have 12 salmon species 
that are listed as endangered species. We have had a tremendous 
decline in our wild salmon. This is part of Oregon's heritage 
and economy. We are trying to figure out how to bring back the 
salmon runs. We have already treaties for salmon harvesting 
with tribal governments. What I am worried about is if we don't 
bring back the salmon the Federal Government is going to be 
liable for some fairly significant costs to the tribal groups.
    So what I am asking for, and again this is a delegation to 
fund the Pacific Coastal Salmon Restoration Fund at the 
administration's of $160 million. $90 million would be divided 
equally between Alaska, Washington, Oregon, and California, $10 
million for the Pacific and Columbia River tribes and $60 
million for the implementation of the Pacific Salmon Treaty 
between the United States and Canada. There is already 
authority within the Marine Fisheries Services so we just need 
the money.
    Thank you very much and if you have any questions, I would 
be happy to answer them.
    [The information follows:]
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Rogers. Thank for your testimony.
    Ms. Hooley. Did I make it under 5 minutes?
    Mr. Rogers. Yes. You have some points coming. Any 
questions? Thank you very much for your testimony. Mr. 
Strickland.
                              ----------                              

                                          Thursday, March 23, 2000.

                    TESTIMONY OF MEMBERS OF CONGRESS


                                WITNESS

HON. TED STRICKLAND, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OHIO
    Mr. Strickland. Thank you, Mr. Chairman, and I promise you 
that I will be under 5 minutes. I have timed it and I would 
like my entire testimony to be included in the record if 
possible.
    Mr. Rogers. It shall be.
    Mr. Strickland. I want to thank you for allowing me to be 
here to talk about a critical issue in regard to our Federal 
Bureau of Prisons. I would like to begin by expressing my 
respect for the Bureau. I think it is one of the departments of 
our Federal Government that does a good job.
    I worked in a maximum state run facility for 8 years and I 
know how difficult it is to deal with felons and dangerous 
felons at that. I am a founder and cochair of the Congressional 
Officers Caucus here in the Congress. I come today for two 
reasons.
    First, I want to echo Director Hawk Sawyer's request that 
language be added to the Department of Justice general 
provisions to provide that the Bureau have greater discretion 
in the placing of D.C. sentenced felons so that the decision 
regarding whether D.C. felons are placed in private facilities 
are made in accordance with the Bureau's needs just as is the 
case with other Federal inmates.
    And the second reason I am here is to implore you that you 
require the Bureau provide to you and to the Congress an annual 
report on the performance of for profit prisons with which the 
Bureau contracts. For profit prisons are responsible for some 
of the most heinous public safety catastrophes in recent 
corrections history. If the Federal Bureau of Prisons must 
contract out its responsibilities of incarceration to for 
profit prisons because the Bureau needs more bed space, then 
the Bureau's liability for public safety I think demands that 
the Bureau at least exercise careful oversight of these 
entrepreneurial enterprises to make sure that they are 
conforming to the same laws, same rules, regulations, and 
standards as the Bureau itself.
    To be fair, this for profit industry has come a long way 
since it began in the mid-'80s when the Correctional 
Corporation of America, which is the Nation's largest private 
prison company, accepted its first inmates before it actually 
had a facility open. Those inmates were housed in rented motel 
rooms until a number of them pushed the air conditioning units 
out of the wall and they escaped. Since then, however, for 
profit prisons have created a multi-billion dollar industry and 
are as likely to be traded on Wall Streets as be listed as 
defendants in litigation.
    In fact, in my home State of Ohio we have already seen how 
the profit motive in private prisons can lead to disaster. In 
July of 1998 at a private facility in Youngstown, Ohio, that is 
run by CCA, 6 prisoners, 5 of them murderers, cut a hole in the 
fence during a recreation break and walked out of the prison in 
broad daylight.
    This incident in Youngstown is not an isolated event. 
Headlines appear almost daily across the country detailing the 
latest debacle of for profit prison companies. Although there 
have been too many to list to you today I will just highlight a 
couple.
    In New Mexico for profit prisons run by Wackenhut, the 
second largest for profit prison company in the country, have 
experienced a series of murders, about one a month. The victims 
have included at least one correctional officer. In Texas a 
staff of CCA was murdered in December. In 1999, during 
Thanksgiving week, CCA had three different escapees on the run, 
including two murderers. One of the escapees was convicted 
murderer Kyle Bell, who was convinced in North Carolina of 
killing an 11-year-old girl that he also molested. Bell escaped 
in New Mexico while being transported. The CCA guards had 
fallen asleep.
    And just last week in Louisiana the story written in the 
New York Times, a state judge removed six teenage boys from a 
juvenile prison run by Wackenhut after finding they had been 
brutalized by guards, kept in solitary confinement for months, 
deprived of food, underwear, shoes, blankets, education and 
medical care. One of the boys freed by the judge was a 17-year-
old who had been found guilty of robbery. He had been forced to 
lie on the floor on his stomach with the knee of a Wackenhut 
guard in his back which caused excruciating pain since the boy 
had recently had an operation for a gunshot wound to his 
abdomen and was wearing a colostomy bag.
    I understand the Bureau needs more space. They tell me they 
cannot maintain the prisoners we are sending them with the 
space they have. But I would sincerely ask that the Bureau be 
held accountable for providing to the Congress a report 
regarding how these private facilities are operated.
    Thank you. Thank you, Mr. Chairman, for this time.
    [The information follows:]
    Offset Folios 138 to 141 Insert here

<SKIP PAGES = 004>

    Mr. Rogers. Thank you for your testimony.
    Any questions? Thank you very much.
    Chairman Gilman. Mr. Gilman.
                              ----------                              

                                          Thursday, March 23, 2000.

                    TESTIMONY OF MEMBERS OF CONGRESS


                                WITNESS

HON. BENJAMIN A. GILMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Rogers. We will make your statement a part of the 
record and if you can summarize it very briefly we would 
appreciate it.
    Mr. Gilman. I will try to be brief. Mr. Chairman, I have 
two matters before you: One on the United States Commission for 
the Preservation of America's Heritage Abroad and for their 
funding and also for funding the DNA index system. With regard 
to the United States Commission for the Preservation of 
Heritage abroad, the commission presently requests a budget of 
$550,000 to continue to meet its legislative mandate.
    The list of the commission's achievements are extensive. 
They are presently involved in vital preservation restoration 
projects throughout the Eastern and Central European area and 
currently mediating major disputes between a number of 
religious factions about the protection of historic cemeteries, 
particularly in the--there is a very ancient cemetery in the 
Czech Republic. An insurance company is trying to build over 
this cemetery and they have had extensive hearings and 
visitations and meetings with the government to try to resolve 
it. But that is typical of what they have been engaged in.
    As you know, the commission received $490,000 appropriation 
from the Congress for fiscal year 2000 that was due in great 
measure to your subcommittee's strong support for the 
commission, for which we are grateful. Dedicating a $500,000 
appropriation, fiscal year 2001 would provide them with the 
kind of adequate resources they need to continue their efforts 
throughout the world. I deeply believe in the commission's work 
and they really maintain the integrity of these historic places 
throughout the world.
    So I would welcome, Mr. Chairman, whatever you think you 
can do in this year's appropriation.
    Mr. Chairman, let me take an opportunity to discuss the 
funding for a measure, H.R. 3375, which I am involved in, the 
Convicted Offender DNA Indexing Support Act. That is a 
cooperative solution that I propose along with Congressmen 
Ramstad and Stupak to eliminate our DNA background. I 
understand that Mr. Stupak did testify previously.
    The DNA index system is an excellent system for resolving 
crimes that have been unresolved based on this index system. 
The problem has been that we have a dramatic increase in the 
backlog of DNA work. And in order to offset that I worked with 
the FBI and with our state police department to try to come up 
with a better solution.
    The solution that I have suggested will provide expansion 
efforts for the State to take care of this backlog of some 
700,000 unanalyzed convicted offender DNA samples. I began work 
last year on this and this will assist our local, State, and 
Federal law enforcement personnel by ensuring that crucial 
resources will be provided to the data banks and to crime labs.
    The FBI's budget includes a request for $5.3 million to 
implement the Federal convicted offender database. The 
Department of Justice is proposing 15 million under the COPS 
program to reduce the backlog that needs to be processed in 
order to get into the CODIS system, where all of these DNA 
samples are coded. I support these requests and hope the 
subcommittee will offer their assistance in providing our DNA 
labs with the necessary support.
    Although the administration's request fails to provide any 
funding specifically for helping our State and local agencies 
to eliminate this backlog, my measure authorizes $25 million to 
be appropriated for assistance in the States and FBI and we 
would welcome your assistance.
    This is a very important tool for our criminal agencies. 
They have solved a lot of cases. There are now thousands and 
thousands of cases backlogged because they don't have the 
resources or the facilities. Your work will help them 
accomplish that. I just came from a hearing of the Crime 
Subcommittee and they are working on several measures to try to 
resolve this backlog.
    Thank you, Mr. Chairman.
    [The information follows:]
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Rogers. Thank you, Chairman Gilman. Your testimony is 
appreciated. I know you are on a tight schedule.
    Any questions? Thank you very much.
    Mr. Gilman. Thank you very much. I appreciate the 
opportunity.
    Mr. Rogers. Thank you. Ms. Ros-Lehtinen.
                              ----------                              

                                          Thursday, March 23, 2000.

 CUBA TRANSITION PROJECT, THE DANTE FASCELL NORTH-SOUTH CENTER AND THE 
                 MIAMI BEACH PROJECT TECHNOLOTY CENTER


                                WITNESS

HON. ILEANA ROS-LEHTINEN, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF FLORIDA
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman, Mr. Serrano, and 
Congresswoman RoybalAllard. Thank you for the opportunity to 
allow me to testify on behalf of three important projects in my 
south Florida district. Two of them are housed at the 
University of Miami: The Cuba Transition Project for Cuban and 
Cuban American Studies and the Dante Fascell North-South 
Center, The third project is the Miami Beach Police Technology 
Project.
    On the Cuban Transition Project, Mr. Chairman and members, 
political change in Cuba from a tyrannical oppression is 
inevitable and the United States should be prepared to deal 
with these changes in an effective way to assist Cuba in 
becoming a free democratic society. Eastern Europe served as an 
example to us as to how difficult the transition phase may be. 
To paraphrase, if we don't learn the lessons of history we are 
condemned to repeat the mistakes.
    This Cuba Transition Project is designed to provide policy 
makers, analysts and other professionals with accurate 
information, with incisive analysis and practical policy 
recommendations. It focuses on three major phases: The 
pretransition and transition itself and the post transition. 
The results of this project will help the U.S. to play an 
important role in Cuba's smooth transition and movement from a 
centrally planned economy and a communist party state to what 
we hope will soon be a free market democracy.
    Because of its programs, its location, materials and 
language capability and historical associations with Cuba, the 
University of Miami is believe be perfectly poised to have a 
positive impact in the transformation of a democratic Cuba. Its 
unique status and contribution is evident in many of the 
programs that the University of Miami has already established. 
Its Cuba On Line database, for example, is a database of 
historical and contemporary information on the island and also 
its position as Secretariat of the prestigious Association for 
the Study of the Cuban Economy. It brings together the most 
highly qualified economists worldwide for a study of the 
island.
    We should not have Cuba's transition process mimic Eastern 
Europe's and we should learn from our mistakes. These senior 
scholars, researchers, and analysts at the University of Miami 
are the right people to guide us in that direction. We ask that 
you appropriate 10 million for this vital Cuba Transition 
Project.
    The second project is the Dante Fascell North-South Center 
also housed at the University of Miami. It seeks to promote 
better relations with United States, Canada, and nations of the 
Latin American and Caribbean area. The Fascell North-South 
Center is rooted in the democratic values of a market driven 
economy and social justice. Through research, public outreach, 
education, and training and cooperative study, this information 
on the Americas will be published and available for the United 
States to have a better opportunity at improving our economy 
and expanding jobs and learning the risks associated with 
partnering countries in the Western Hemisphere to prevent 
economic catastrophes. The scholars and professionals at the 
Dante Fascell North-South Center at the university have 
successfully been able to study the market and publish first 
quality information and to avoid market failures. We have been 
very helpful to our neighbors in urging them to take these 
correct steps. We would like the subcommittee to grant $1.75 
million for this unique center.
    And the third project, Mr. Chairman and members, is the 
Miami Beach Police Department Technology Program. We ask $1 
million for this new technology initiative. The funds will be 
utilized to enhance communication and response among law 
enforcement officers with respect to disasters and emergencies. 
Funds will also be used to acquire the necessary infrastructure 
to provide real time online public access to crime reports, 
statistics about crime and crime maps. With an appropriation of 
$1 million, the Miami Beach Police Department will develop 
closer partnerships with the community it serves to better 
equip their officers in the community and to make Miami Beach 
and, indeed, south Florida a safer place for all of us to live.
    I thank the subcommittee for the time to testify.
    [The information follows:]
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Rogers. The gentlelady has given us a workload and if 
this budget resolution, if it passes on the floor and allows us 
any leeway, we will be anxious to help what we can. Any 
questions?
    Ms. Ros-Lehtinen. I should try to take an earlier flight 
then. Thank you, Mr. Chairman.
                              ----------                              

                                          Thursday, March 23, 2000.

      JOINT COMMUNICATIONS TECHNOLOGY PROJECT AND A NEIGHBORHOOD 
                         REVITALIZATION PROGRAM


                                WITNESS

HON. KAREN THURMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
    Mr. Rogers. Mrs. Thurman, you are recognized. Your written 
statement will be made a part of the record and you may 
summarize.
    Mrs. Thurman. Thank you, Mr. Chairman. I know you have been 
sitting through a lot of testimony today and every time I come 
to testify before this subcommittee. We have a very needy 
country out there, and I understand and appreciate that. And 
I--I can't imagine the tasks that are before you in trying to 
make decisions. But, I would be remiss if I did not come with 
projects for the district that I represent in the communities 
that I have the opportunity to serve.
    There are a couple of projects here that are very important 
to the community. I have to say I think the one thing that we 
bring strength in is a lot of our communities are starting to 
work together, our cities and counties, in trying to bring 
joint projects that they are both investing in to try to make 
their communities safe. One of the areas that we have talked 
about in here before, and in fact our sheriff was up here a 
couple of years ago, is the City of Gainesville's 
Communications Technology Project. We are seeking funding to 
put a Joint Communications Technology Project together to 
enhance public safety. Again this is the City and Alachua 
County. They have initiated a joint communication system for 
the future. The interesting part about this is also it takes 
care of our regional rural area. It also covers a very large 
portion of north Florida.
    We also have a project that is dealing with Partners for a 
Productive Community, and we are seeking Federal funding to 
expand our neighborhood revitalization program. It has actually 
worked already within the county, but they are trying to expand 
it out into some of the more rural areas. Again it is a joint 
project to take what is already successful and move it out so 
it is successful for the entire community.
    There is an area though that we have come up with a 
shortfall of about $770,000, which is a business incubator, the 
Technology Center, that actually broke ground a couple months 
ago. When it was launched about 3 years ago the construction 
costs were going to be about $60 per square foot. They have now 
gone to $87 per square foot. We are about $770,000 short. It 
would be a shame for us to lose what has already been invested, 
about $1.4 million, because of the shortfall.
    We have some other projects here but I look like the last 
one here, at least when I came up. So if I get out of here 
maybe you can take a break. I hope you would consider mine and 
thank you. I will answer any questions.
    [The information follows:]
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Rogers. Thank you very much. You just made a lot of 
points. Any questions?
    Mr. Serrano. Thank you.
    Mr. Rogers. Thank you very much.
    Mr. McGovern and Mr. Frank.
                              ----------                              

                                          Thursday, March 23, 2000.

                        NATIONAL TEXTILE CENTER


                               WITNESSES

HON. JIM McGOVERN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
HON. BARNEY FRANK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
    Mr. McGovern. Thank you, Mr. Chairman, for allowing us to 
appear before you today. We are here to ask the subcommittee to 
appropriate 15 million for the National Textile Centers in the 
fiscal year 2001 Commerce, Justice, and State appropriations 
bill. I represent Dartmouth, Massachusetts, which is located, 
which also borders Congressman Frank's district, which is in 
New Bedford. This program has already generated a great deal of 
help for the textile industry, which is still alive and well in 
our region of the country. The best way for textile companies 
to remain in business in the face of international competition 
is by developing innovative processes, identifying niche 
markets, and in providing other innovative ways to help them 
compete. We have been told that already 250 million in economic 
activity could be traced to the $54 million in Federal 
investment in the National Textile Center since fiscal year 
1992.
    This is an important program. I think all of the 
universities that benefit from this will attest to the fact 
that it has been of great value and, even more importantly for 
us, it has been an incredible help to the industry in our area 
in keeping people employed.
    I will submit my total testimony for the record.
    [The information follows:]
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Rogers. Thank you.
    Mr. Frank. This is genuinely a national program. The center 
itself is in Delaware, and the University of Alabama, Georgia, 
Massachusetts, and mostly in the South, both Carolinas 
participate. I think the justification is that it is American 
trade policy which has caused obviously some of the problems 
here. We pay lip service to the principle that what we should 
do is go forward with open trade and then compensate those who 
have been hurt and try to deal with it.
    This is a genuine effort to do this. This is an effort 
developed within the United States, a technology based textile 
industry, so that whereas we can't compete simply in the area 
of wages we would have some sector of industry, a high tech 
sector here. And understand that much of the textile industry 
goes overseas because of wage deficits, but we can develop some 
technology based activity here and that has happened. It has 
saved some jobs and it is a relatively small investment. And a 
national center willing to distribute technology is the model 
for, people tell us, what we are supposed to do with regard to 
facilitating globalization while trying to minimize the impact 
on working America. It has been very important for us.
    University of Massachusetts at Dartmouth is a very good 
example of a university that works very well with the private 
sector in the surrounding communities. So we think this is a 
project that at least as far as we know complies with what 
people tell them they are supposed to do.
    [The information follows:]
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Rogers. We thank both of you for your testimony. We 
provided $9 million this current year----
    Mr. Frank. They are looking for an increase.
    Mr. Rogers. I don't know what the budget request was. I 
think it is zero last year. I think it is again zero. We have 
$9 million. It is an interesting topic. I formally had lots of 
textile workers in my district. I have hardly any now after 
NAFTA. They went south. Fruit of the Loom has flown the coop 
and many others. I wish you well on trying to develop a high 
tech textile end. I am a little bit pessimistic about that. I 
don't know how we can do that but----
    Mr. Frank. First of all, I know that the loss of Fruit of 
the Loom was painful, of course. Now Fruit of the Loom is going 
down the tubes. Even if you had it you wouldn't have. There are 
mixed emotions to the reaction of the departure of Fruit of the 
Loom.
    Mr. Rogers. If they had stayed here we would have taken 
care of them.
    Mr. Frank. He thinks he can take care of himself. I 
appreciate that. It does stress that we do think there is some 
national responsibility to try to help people who are the 
victims of trade policy. They have had some success. It is 
obviously a much smaller industry but the flocking process 
appears to be one where it works well. We have Malden Mills up 
in Massachusetts where they had the fire. But at least so far 
it has at least helped it to keep, albeit a much smaller one, 
to keep going.
    In any case, we have a university that does work on an 
ongoing basis with firms in both the cities on either side.
    Mr. McGovern. In the testimony I submitted to the committee 
it kind of lists the number of successes that the money you 
have already invested achieved for the industry, which have 
helped strengthen the industry and keep it alive.
    Mr. Frank. I voted against that because I wanted to protect 
the owners.
    Mr. McGovern. I would have voted against that if I was 
here.
    Mr. Rogers. So did I. Thank you both for your testimony. We 
are in recess for the moment.
    [Recess.]
                              ----------                              

                                          Thursday, March 23, 2000.

      NEWARK ARENA, OPERATION NITRO, AND THE CENTER FOR BIODEFENSE


                                WITNESS

HON. DONALD PAYNE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
    Mr. Rogers. Mr. Payne, you are recognized. We will make 
your written statement a part of the record and if you would, 
summarize it for us.
    Mr. Payne. Thank you, Mr. Chairman. It is a pleasure for me 
to be here to come before the subcommittee to give me an 
opportunity to testify here today about requests of critical 
importance for my congressional district, the 10th 
Congressional District of New Jersey, right across the river 
from Congressman Serrano. It includes my hometown.
    Mr. Serrano. It is well noted.
    Mr. Payne. Thank you. I very much appreciate all of the 
help in the past you have given in the past and I look forward 
to your continued support.
    Let me just quickly touch on three specific requests. First 
is the Newark Arena. This is a very new economic development 
initiative which is evolving from a concept to concrete plans. 
There is a unique opportunity for a major downtown facility 
linked to key transit hubs. The synergy of a major tenant that 
is committed to invest for the community for its development 
and opportunities for upgrading the center city retail and 
economic environment makes this a very attractive proposal. It 
is anticipated that the arena would be open for business in the 
year 2002. For site acquisition and construction, a total of 20 
million is requested through the Economic Development 
Administration of the Department of Commerce.
    Secondly, the next request is for a Criminal Justice 
Operations Narcotics Interdiction to reduce open air drug 
markets, NITRO. This program is designed to improve the quality 
of life in the city's neighborhoods by reducing the incidents 
of drug trafficking.
    The Newark Police Department's statistics show that an 
estimated 80 percent of crime in Newark is drug related. The 
single most significant impact law enforcement could have is 
through dismantling criminal enterprises by targeting the 
infrastructure and profits associated with the drug trade. 
Operation NITRO is a comprehensive effort designed to address 
long-term operations through collaboration strategies as, one, 
proactive street level enforcement to search warrants for mid 
and upper level drug trafficking networks, asset seizures 
through civil enforcement, neighborhood problem solving, and 
high visibility fear reduction. The Police Department has 
identified requirements for specialized facilities and 
equipment needs such as cellular phones, wireless transmitters, 
recording devices, night vision infrared equipment will be 
needed. In addition, vehicle based computers, cameras and 
videotape recorders are needed to facilitate this operation.
    Finally, and my last request is for the Center for 
Biodefense. Changing international conditions, post-Cold War 
deployment of U.S. troops in new geographic areas and an 
increasingly global economy has contributed to a resurgence of 
infectious diseases and the threat of domestic and 
international chemical and biological attacks. We saw that in 
New York City with the West Nile virus. And so UMDNJ has 
created an International Center for Public Health, a world 
class infectious disease research and treatment complex in the 
University Heights Science Park in Newark as a direct response 
to this emerging public health and safety crisis. The center 
consists of the Public Health Research Institute, an 
internationally prestigious biomedical research institute that 
conducts a broad range of infectious disease and public health 
research; the UMDNJ National Tuberculosis Center, one of the 
three federally funded TB centers; and the UMDNJ New Jersey 
Medical School Department of Microbiology and Molecular 
Genetics.
    The center has received State and Federal support in its 
mission to become one of the premier centers focusing on 
infectious disease research and treatment. UMDNJ University 
Hospital will coordinate training programs for emergency 
department physicians and nurses. University EMS will also 
coordinate EMS technical classes. Participants from these 
programs will be from Newark area hospitals, Level I and Level 
II trauma centers, and specialty healthcare centers. This is 
the critical logistical challenge confronting New Jersey, and 
it warrants your particular consideration.
    With that, Mr. Chairman since our time is running out, I 
would urge your strong consideration for these three very 
worthwhile projects, one of many that are needed. And I know of 
the dozens and dozens that come before you, but I do feel that 
these three unique projects will have a tremendous impact on 
the State of New Jersey and in the 10th Congressional District 
which still lags behind other areas. With the great resurgence 
in this Nation, we are still lagging behind. So I would 
appreciate any consideration you can give us.
    [The information follows:]
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Rogers. Thank you very much for your very eloquent 
statement. Did you say 80 percent of the crimes are drug 
related?
    Mr. Payne. That is right.
    Mr. Rogers. What is the chief drug they have been using?
    Mr. Payne. It is cocaine. What happens is out of towners 
come into the city. Drug dealing is something that is done very 
rarely in the suburbs, and suburban use is as high as in the 
city. Matter of fact, it is much higher because inner city 
people can't afford it. So the out of towners come in late at 
night or early in the morning; there is a pattern. That is why 
we need the infrared things. They will come in at 3:00 or 4:00 
in the morning, 5:00 o'clock in the morning, 1:00 or 2:00 in 
the morning, any time after dark. It is cocaine.
    Now, we have a new drug that is being used in the suburbs 
that is used by teenagers, and New Jersey has sort of the 
highest growing number of users that are addicted to it. It is 
very hallucinatory and dangerous and could actually cause 
death.
    Mr. Rogers. Is that methamphetamine?
    Mr. Payne. That is correct, coming from the Netherlands. 
Newark International Airport, now being a new international 
airport, direct flights from Amsterdam, we see that this drug, 
like I said, is usually white teenage and young adults from 
suburban communities, is another problem that we have.
    So the bad part about it is that many of these youngsters 
are really not bad kids. It is just that they figure this is 
the only thing they could do for a living. It is sad. You would 
be surprised. You could have a roomful of drug dealers and you 
could have a roomful of kids going to high school and college 
and you wouldn't know the difference because they are basically 
not bad. When I was a kid if a guy was a criminal he was tough, 
rough, you have got to keep out of his way. These kids are just 
kind of brought in because they have nothing else to do.
    So anything we could do in this area would not only help 
the city but perhaps these kids in the future if we could cut 
it off and try to redirect them.
    Mr. Rogers. We made available now for several years running 
and including the current year hundreds of millions of dollars 
for the local law enforcement block grants. Moneys can be used 
for anything that the local law enforcement people feel is 
suited to their needs. So I would encourage you and them to 
attempt to get grants through that program, and the Juvenile 
Justice Grant Program as well, and the Violence Against Women 
Grants. There are lots of grants that Justice has. And the 
record shows they don't give all of that money out every year. 
So there is money there. And I would encourage you and your 
local police departments to seek that out.
    One final question. You mentioned tuberculosis. Is there a 
resurgence?
    Mr. Payne. Yes. As a matter of fact, the strain is very--it 
is a tough strain. One of the problems that happened when 
tuberculosis reemerged was that no one made the drug to deal 
with it, the streptomycin. No one made it and it was of no 
profit to the drug makers. So when it reoccurred there was a 
lack of adequate drugs to handle it. Currently this new 
tuberculosis though is resistant to the old treatment. There 
has to be a cocktail of three or four different drugs that have 
to be brought together. As a matter of fact, we have outreach 
with people that go in and find--it has to be taken daily if 
you are going to eradicate the disease. So it is a tough 
strain. We have this new center that is dealing with it to see 
about--you know, cocktails or something. You have to take four 
or five pills. If they can take the ingredients of four or five 
and then come up with a single pill, then you are going to have 
more success. One of the reasons people don't want to come to 
take it is all day long you are simply taking pills.
    But it is a new resistant strain. It is tough to--you see 
the bad part about tuberculosis is you don't have to--to get 
certain diseases you have to maybe do something you shouldn't 
have done. Tuberculosis, all you have to do is be on the subway 
and someone coughs in your face or on the metro or in a bus or 
plane. It is just contagious. Therefore, I think that we really 
have a responsibility because you can get it just by being and 
standing somewhere.
    So I would hope that we could really have the focus on this 
new resurgence because if we are going to have resistant 
strains we are in bad shape. Once again a resurgence in 
tuberculosis is just unbelievable.
    Mr. Rogers. Thank you for your testimony.
    Mr. Serrano.
    Mr. Serrano. Just very briefly on that point. I am very 
much familiar with this issue of tuberculosis. When I was a 
child it was major problem in Puerto Rico and then it became a 
problem of the Puerto Rican communities in the United States. 
Then, thank God, with drugs and proper nutrition and rest and 
whatever it disappeared. Now it has come back, not related to 
any particular community like it was before but related in 
general to a condition, where he is correct. It could be 
someone who is suffering from the HIV infection or who has got 
a drug problem and then it is spreading throughout areas like 
ours and throughout cities like ours with no relationship to 
anything that doctors can point a finger to. So it is really a 
major problem.
    One last point, Mr. Chairman. We don't seem to be paying 
attention to it. We don't seem to know that it came back.
    Mr. Payne. That is right. It is definitely back.
    Mr. Rogers. Thank you so much for your testimony.
                              ----------                              

                                          Thursday, March 23, 2000.

                    TESTIMONY OF MEMBERS OF CONGRESS


                                WITNESS

HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
    [The information follows:]
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Rogers. The hearing is adjourned.
    [The following statements were submitted for the record:]
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

</pre></body></html>
